HHS/OIG-Audit--"Medicaid Transportation Claims - Indiana Family and Social Services Administration, Indianapolis, Indiana" (A-05-00-00017)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Transportation Claims - Indiana Family and Social Services
Administration, Indianapolis, Indiana," (A-05-00-00017)
March 26, 2001
Complete Text of Report is available in PDF format
(68 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final letter report provides you with the results of our audit "Medicaid
Transportation Claims." The objective of our audit was to determine the
allowability of paid Medicaid claims for non emergency transportation trips
which could not be matched to a claim for medical service or product on the
same date.
Although your Office of Medicaid Policy and Planning (OMPP) initially identified
non-emergency transportation claims without related medical services, amounting
to over $1.3 million during fiscal year 1999, a subsequent refinement to this
analysis reduced the potential questionable claims to $157,948 for the quarter
ending September 30, 1998. Our sample review noted reasonable explanations for
about 35 percent of these claims and documentation problems for the remaining
65 percent of the transportation claims.